No. __________
IN THE

Supreme Court of the United States
UBER TECHNOLOGIES, INC. AND GEGEN LLC,
Petitioners,
v.
ALI RAZAK, KENAN SABANI, AND KHALDOUN
CHERDOUD,
individually and on behalf of all others similarly
situated,
Respondents.

CERTIFICATE OF SERVICE
Pursuant to this Court’s Rule 29 and order of April 15, 2020, I hereby certify that
I am a member in good standing of the bar of this Court and that on this 5th day of
April, 2021, all parties required to be served have been served with one paper copy and
one electronic copy of the Petition for a Writ of Certiorari.
Jeremy E. Abay
SACKS WESTON
1845 Walnut Street
Suite 1600
Philadelphia, PA 19103
(215) 925-8200
jabay@sackslaw.com

Ashley Keller
KELLER LENKNER
150 North Riverside Plaza
Suite 4270
Chicago, IL 60606
(312) 741-5220
ack@kellerlenkner.com

John K. Weston
SACKS WESTON
1845 Walnut Street
Suite 1600
Philadelphia, PA 19103
(215) 925-8200
jweston@sackslaw.com

Seth A. Meyer
KELLER LENKNER
150 North Riverside Plaza
Suite 4270
Chicago, IL 60606
(312) 741-5220
sam@kellerlenkner.com

Counsel for Respondents
/s/ Theane D. Evangelis
Theane D. Evangelis

